                   Department of Veterans Affairs
                      Office of Inspector General




        Administrative Investigation 

      Prohibited Personnel Practice and
           Preferential Treatment 

      National Cemetery Administration
              VA Central Office 




     Redacted




Report No. 13-03899-216                                     July 17, 2014

                          VA Office of Inspector General

                             Washington, DC 20420

                          DEPARTMENT OF VETERANS AFFAIRS
                                Office of Inspector General

                                 Washington, DC 20420 





TO:              VA Chief of Staff

SUBJECT:         Administrative Investigation, Prohibited Personnel Practice and
                 Preferential Treatment, National Cemetery Administration (NCA),
                 VA Central Office (VACO) (2013-03899-IQ-0226)

Summary
We concluded that Mr. Steve Muro, former (retired) Under Secretary for Memorial
Affairs, NCA, VACO, engaged in a prohibited personnel practice when he created a
position within NCA and preselected an employee, who was also a friend, for that
position. Over a 3-year period of time, the employee planned to retire several times, but
when retention incentives and quality step increases (QSI) no longer enticed him to
remain, Mr. Muro created a promotional opportunity which raised the employee’s salary
by approximately $10,000 annually, thereby increasing the employee’s retirement
annuity by about $400 each month.

We further found that Mr. Muro engaged in preferential treatment of an NCA contractor,
Ms. Patricia Noonan, President of Noonan & Associates, when he developed a less-than­
arm’s-length relationship with her; when he continued to communicate with her via email
and telephone after being given guidance to cease those communications; misused his
title when he gave her an unfair competitive advantage by providing her a letter of
recommendation, which she used to procure additional NCA contracts; and when he
improperly supported her in her efforts to obtain additional VA contracts. Further, he
gave preference to select NCA employees seeking advancement when he reviewed and
edited resumes they initially sent to Ms. Noonan for her review, which she forwarded to
Mr. Muro for his input.

We also found that NCA improperly gave Ms. Noonan sole-source contracts to provide
one-to-one services to NCA employees promoted or seeking promotion. NCA’s Head of
Contracting Activity (HCA) told us that the contracts were established to assist NCA
employees in their professional development; however, we found this type of training is
readily available through VA’s Learning University (VALU). NCA paid Ms. Noonan
$250/hour for each contract, which included her meeting with the employee, observing
that employee do a presentation, providing feedback, and doing telephone counseling, as
well as helping the employee write their individual development plan (IDP).
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO



Introduction
The VA Office of Inspector General Administrative Investigations Division investigated
allegations that Mr. Muro engaged in a prohibited personnel practice when he allowed an
NCA contractor to review his long-time friend’s resume and preselected him for a higher
paying position. We also investigated an allegation that Mr. Muro had a less-than-arm’s­
length relationship with that contractor. To assess these allegations, we interviewed
Mr. Muro; Ms. Noonan; Mr. Glenn Powers, NCA Deputy Under Secretary for Field
Programs; Mr. Thomas Muir, NCA Deputy Under Secretary for Management and HCA; (b) (7)(C)
Ms. Kimberly Wright, NCA Director of Field Programs;
NCA Management Analyst; and other VA employees. We reviewed email, personnel,
telephone, and contract records, and other relevant documents. We reviewed Federal
laws and regulations, as well as VA policy. We made no recommendations for
administration action against Mr. Muro, as he retired from VA effective June 20, 2014.

Results
Issue 1: Whether Mr. Muro Engaged in a Prohibited Personnel Practice

Federal law states that Federal employees must be selected and advanced solely on the
basis of relative ability, knowledge, and skills, and unless otherwise exempted by law,
after fair and open competition. 5 USC § 2301(b)(1). It also prohibits an employee from
granting an unauthorized preference or advantage to improve or injure the employment
prospects of any particular person. Id., at § 2302(b)(6). The Merit Systems Protection
Board website www.mspb.gov/ppp/aprppp.htm states, “It is possible to violate section
2302(b)(6) using legally permissible hiring actions if the intent is to afford preferential
treatment to an individual.” Further, Federal law prohibits an employee who has
authority to take, direct others to take, or recommend personnel actions from taking or
failing to take any personnel action if it violates any law, rule, or regulation
implementing, or directly concerning, the merit system principles contained in section
2301 of Title 5, United States Code. Id., at § 2302(b)(12).

The Standards of Ethical Conduct for Employees of the Executive Branch require that
employees act impartially and not give preferential treatment to any individual, put forth
an honest effort in the performance of their duties, and to endeavor to avoid any actions
creating the appearance that they are violating the law or ethical standards. 5 CFR
§§ 2635.101(a)(5), (8), and (14).
                                                                                                   (b)(7)(C)
                Intent to Retire

Personnel records reflected that             began working at VA on             , 1970,
under the Civil Service Retirement System (CSRS). He told us that he originally planned
to retire in 2003—personnel records contained a retirement computation sheet dated


VA Office of Inspector General                                                                      2
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO

                                                                                                         (b)(7)(C)
December 31, 2002—but he said he decided to stay after being offered a Cemetery
Director position. Personnel records reflected that on June 29, 2003,               was
appointed as the Director of                       Cemetery,                  . Records
also contained another retirement computation sheet, dated December 15, 2008, with
projected retirement dates of March 31 and July 31, 2009.                told us that he
contemplated retiring in 2008, 2011, and 2012, but he said that he continued working at
VA due to retention incentives, quality step increases (QSI)—an additional within-grade
increase used to recognize, reward, and move an employee through a pay range more
quickly—and a promotion.

Personnel records reflected that               was given a QSI effective October 3, 2008.
On October 27, 2008, the NCA Director of Field Programs recommended a 10 percent
retention incentive for             , effective January 18, 2009, and Mr. Muro approved
it. On January 31, 2010,                  was given another QSI. Mr. Muro told us that
              worked for “at least” a year without a retention incentive, prior to being
promoted. However, personnel records reflected that on November 15, 2011, the
Memorial Service Network (MSN) 5 Director issued a memorandum recommending that
             continue receiving a 10 percent retention incentive, and Mr. Muro approved
it on January 20, 2012. Payroll records reflected that              continued receiving a
retention incentive up until his promotion on July 29, 2012, from a GS-13, step 7, with a
salary of $104,766, to a GS-14, step 4, with a salary of $113,486. He retired on
                   .
                                                                                                         (b)(7)(C)
             told us that he and Mr. Muro had a personal and professional relationship
that spanned 35 years. He said that their professional relationship was directly related to
NCA matters and that their personal interactions were strictly outside the workplace.
Email records reflected email communications between                      and Mr. Muro
concerning incentives given to             . For example:

   	 In a March 14, 2008, email,                    told Mr. Muro, “…thanks for the
      incentives to stay. I enjoy what I do and now that you are putting your retirement
      on hold, working an additional year will be easy.”

   	 In a September 2, 2008, email,              asked Mr. Muro, “Anything happening
      with the retention extension you offered me?” Mr. Muro replied, “Yes, we’re
      working on it” and told him that his executive assistant would contact him soon.

   	 In a September 10, 2008, email,                                        gave Mr. Muro an
      update on her processing                      retention incentive and QSI.

   	 In a July 25, 2011 email,                   told Mr. Muro of his intent to retire.             (b)(7)(C)

   	 In an October 18, 2011, email, Subject: Retention Bonus,                    ,
                         to Mr. Muro, told Mr. Powers and Ms. Wright, with Mr. Muro


VA Office of Inspector General                                                                      3
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


       on copy, “Steve said he talked to                          and he is willing to stay an
       additional year if we give him the bonus.”
                                                                                              (b)(7)(C)
Management and Program Analyst Position

Mr. Glenn Madderom, NCA Chief of Cemetery Development and Improvement Services,
told us that Mr. Muro and Mr. Powers initially envisioned a newly created Management
and Program Analyst position being filled with someone who had field technical
expertise to support the Cemetery Development and Improvement Service with research
and development issues and also Field Programs for “somebody that could do training
stuff, training curriculum for the Cemetery Director Intern Program, things like the
Foreman Boot Camp.” He said that Mr. Muro and Mr. Powers told him that the position
would be under his (Mr. Madderom’s) supervision.

Mr. Muro told us that on several occasions he urged              to remain with NCA and
consider exploring additional career advancement rather than retire. In a March 14, 2012,
email,              told Mr. Muro, “I know you have heard I am retiring June 2nd, 2012.
I feel after 42 years I am ready to go.” Mr. Muro told us that he spoke to
about upcoming NCA opportunities in 2011 and in April 2012.                   told us that
Mr. Muro told him that if he                   did not retire and took care of the NCA
training program, he (Mr. Muro) would give him an incentive and then
told him that they were thinking about creating a new position that would be a good fit
for him. A series of May 2012 emails reflected, and Mr. Muro told us, that he directed
                                                                     to create a position
description (PD), reflect that it was for a GS-14 virtual training manager/research and
development position, and coordinate with staff, including Mr. Powers, Mr. Madderom,
and NCA Human Resources (HR) to finalize it.                                          (b)(7)(C)
   	 In a May 9, 2012, email, Mr. Muro told                            to “Please call me on my
      cell phone. We need to talk about   ”

   	 In a May 10, 2012, email, Subject: New PD,                        told Mr. Muro,
      “Would you please look at the draft, below, and let me know if I’m on the right
      track? If so, I’ll make your edits, get additional input [and] then finalize it and
      pass it on to [HR personnel] to process for classification.”

   	 In a May 11, 2012, 9:20 a.m., email, Subject: New PD,                          told
      Mr. Muro, “I got minor edits (added position is virtual and may require up to 20%
      travel.)” About 8 hours later, she told Mr. Muro that she finished the PD,
      incorporated Mr. Madderom’s edits and sent it to Mr. Powers, telling Mr. Powers
      that Mr. Muro was “anxious to get it classified.”

Mr. Muro told us that if positions were identified as new or requiring backfill, it served
NCA well to “complete the HR processes as expeditiously as possible.”


VA Office of Inspector General                                                                      4
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


   	 In a May 13, 2012, email, Subject: New PD,                  told Mr. Muro that
      Mr. Powers said the PD “looks good,” and that she would “send it to [HR].”

   	 In a May 31, 2012, email,                                                    , sent the GS-14
      classified PD to NCA Central Office HR personnel.                                        (b)(7)(C)
   	 In a June 4, 2012, email,                asked that the NCA Assistant HR Director
      announce the position and told her, “The Under Secretary would like to have this
      position announced…announce it at the GS-14 level only for the minimum
      amount of time and smallest area of consideration necessary as we feel we have
      several qualified candidates within NCA.” The Office of Personnel Management
      (OPM) defines an area of consideration as the individuals from whom the agency
      will accept applications to compete for the position. It may be a broad or a limited
      group of individuals.

   	 In a June 5, 2012, email,                asked an HR Specialist to send her the
      USAJOBS internet link for the position announcement once it was posted. In a
      separate email, she told NCA Central Office senior staff, that, “In case you are
      asked the status of the new GS-14 Management & Program position…Steve
      would like to see the announcement, once it’s been issued.”

   	 A June 11, 2012, email Mr. Madderom sent to Mr. Muro contained the USAJOBS
      internet link for the position. Within 30 minutes, Mr. Muro forwarded the email to
                      , and 10 minutes later,                  told Mr. Muro that she
      “forwarded it to              .”

   	 A June 12, 2012, email sent to NCA senior leaders, including Mr. Muro,
      Mr. Powers,              , and others, contained         retirement event
      invitation scheduled for           .

A comparison of the job announcement,                      application, and his FY 2011
performance appraisal reflected that they were all very similar. For example:

   	 PD – The incumbent assists in the development of curricula for the Cemetery
      Director Intern Program, Foreman Boot Camp, and Cemetery Caretaker Boot
      Camp, serves as a coach to the Cemetery Director Interns…mentors cemetery
      directors.                                                                (b)(7)(C)
   	                application – Lead on the Cemetery Caretaker training course and
        the Foreman Training Boot Camp…member of the Cemetery Director Intern
        Curriculum Design Team…design of the 2012 Director Intern curriculum…
        mentor to NCA Director Intern program.




VA Office of Inspector General                                                                      5
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


   	 FY 2011 Performance Appraisal – NCA has undergone plans to train all its
      Cemetery Caretakers in the next two years.          is one of the key faculty
      members in this ambitious training venture. He not only planned the training
      modules, but is also one of the key presenters.
                                                                                                     (b)(7)(C)
Mr. Madderom told us that although the position was aligned to work for him, some of
the functions of the position, such as training, were not within his purview. He said that
he did not know why NCA leadership created a new position to assist with the training
program, since              was already managing those tasks.

Mr. Muro told us that he directed                    to send the USAJOBS internet link to
            , “To see if he was interested in the job so he’d apply…This would be a good
job if he applied.” He later told us that he wanted it sent to         , because he knew
that               was contemplating retirement and might not be looking on USAJOBS
for job postings. He further said that there were several NCA employees that he hoped
would apply for the position but that he only instructed                    to send it to
             , since “he was a good person for the job.” Mr. Muro told us that it was
normal practice for NCA to send a blanket email to all NCA employees telling them of
new vacancy announcements; however, we found no evidence that this particular position
was distributed to all NCA employees. He later told us that the distribution of NCA
positions was not “consistently executed” all of the time.

Personnel records reflected that the certificate of eligibles generated for this hiring effort
contained three names,                 and two others, and all three worked within NCA.
One of the candidates told us that he found the announcement by happenstance while
searching USAJOBS for opportunities and the other said that someone outside of NCA
sent him the job announcement, after finding it accidentally while searching for positions.
Both candidates told us that they did not receive an internal NCA email announcing the
position, and they both said that they filed complaints as a result of this hiring effort.     (b)(7)(C)
In a June 21, 2012, email, Mr. Madderom received an email containing a link to the
certificate of eligibles for the position. Personnel records reflected that             was
one of three names listed on the certificate. Later that day, Mr. Madderom forwarded the
email containing the certificate of eligibles link and asked NCA senior leaders “how does
CO [Central Office] prefer to handle the evaluation and selection process?” Ms. Wright
told us that since               mentioned that he was going to retire, it was possible that
Mr. Madderom thought that Mr. Muro or Mr. Powers created this position for
          and that was why Mr. Madderom asked how they wanted to handle the
evaluation and selection process for the vacancy.

Mr. Madderom told us that                 led the interview panel and that she asked him
to review and assist in preparing the interview questions to identify the top candidate.
            told us that he and                   had a personal friendship going back
15 years and that he believed she told him about the new position and asked if he was


VA Office of Inspector General                                                                      6
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


interested based on their personal friendship.                  initially agreed to speak to
us about this hiring effort; however, she then changed her mind. She said that since she
was now retired, she felt that VA could no longer protect her if she cooperated with us. (b)(7)(C)

              told us that he gave NCA more years than he planned. He said that
Mr. Muro did not promise him the GS-14 position, but they had discussions about his
involvement in the training program development and the training of all the caretakers
and foremen in NCA. He said that he was going to retire and Mr. Muro asked him “if he
could finish that program out.”                 said that                  then sent him an
email telling him that they were “thinking about making a position” that would be a good
fit for him and “one of your primary duties would be to continue the educational class.”
             told us that he applied for the position, because it fit him “to a T” and gave
him an opportunity to increase his retirement annuity.

An Office of Personnel Management (OPM) pamphlet found on their internet website
titled, Retirement Facts 7, Computing Retirement Benefits Under the Civil Service
Retirement System, reflected that a CSRS annuity was the percentage of an employee’s
“high 3” average salary, which was based on the employee’s length of creditable service
and that by law, the percentage was limited to 80 percent, which was reached after
41 years and 11 months of service. www.opm.gov/asd

              said the retention incentives gave him a “little bit of cash” but when he had
the opportunity to be promoted to a GS-14 position and the duties “were lined up to fit
[his] skills,” he applied, since it would help with his retirement annuity. He said “that’s
the way the NCA will pay me back, I guess you can say, in the future.” Personnel
records reflected the promotion increased his annual salary by approximately $10,000.
An online Federal retirement calculator reflected that the increase in salary that came
with the promotion increased                  retirement annuity by about $400 a month.
                                                                                                         (b)(7)(C)
In a July 2, 2012, email, Mr. Madderom provided NCA senior leaders the interview
scores for the position. Mr. Powers responded, “So are you going with the panel’s
recommendation?” Mr. Madderom replied, “Yes-the scoring is clear and I am ready to
make the selection.” Mr. Powers then said, with Mr. Muro copied on the email chain,
“go ahead and let HR make the contact. Once they have an acceptance from
please call the two others.” In a July 5, 2012, email, Mr. Madderom told NCA senior
leaders, “Done -              has accepted the position and I have called and spoken with
the other two candidates...” Personnel records reflected that               was promoted
into the GS-14 position effective July 29, 2012, retiring 16 months later.

                  ,                    , told us that he had over 12 years of HR experience
and that as a subject matter expect in NCA HR, he said that he would advise management
against discussing employment opportunities with an employee about to retire, as this
may give the appearance of preferential treatment in the hiring action.                   ,
Mr. Powers and Mr. Muir told us that based on the above facts associated with this hiring


VA Office of Inspector General                                                                      7
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO
                                                                                                         (b)(7)(C)
initiative, they believed that            selection gave the appearance of preselection.
Ms. Wright told us that Mr. Muro, Mr. Powers, and Mr. Madderom had discussions about
how this would be a “great position” for             and “there was talk” of
“staying on in some capacity.” She said that based on the meetings and conversations
that occurred prior to the announcement being posted, she thought that the position was
specifically created for           and that he was preselected for it, due to the fact that
he was about to retire

Mr. Muro told us that               was not preselected for this position, but he agreed that
the way the events occurred “it could be unfair” to other NCA employees. He said that
although they could also apply, they were not given the same opportunity as
             when the USAJOBS internet link was sent only to him. He further said that
Mr. Powers, Ms. Wright, and Mr. Madderom “were probably all supportive of
getting and being promoted to the position once he applied because he's a good man. He
did a good job. He was dedicated. He was a good trainer…He was one of the top guys
that we could go to; a lot of people would go to for advice and guidance.” He further said
that             was worth the money they paid to retain him. He told us that he wished
he could have kept                 longer, but “after 45 years you get to the point where
you’re not making any money for retirement.” Personnel records reflected that after
            retired, a member of the interview panel transferred into that position.

Conclusion                                                                                        (b)(7)(C)

We concluded that Mr. Muro engaged in a prohibited personnel practice when he, with
intent to do so, gave              preferential treatment and provided him an advantage
not afforded to other NCA employees. Mr. Muro gave                     retention incentives
and QSIs over a period of several years in an attempt to entice                to postpone
his retirement. Although providing these incentives was not improper, when they no
longer averted                plan to retire, due to having minimal or no impact on his
retirement annuity, Mr. Muro discussed NCA career advancement opportunities with
him. In March 2012,                 told Mr. Muro that he was retiring in             , and
Mr. Muro told him that if he postponed his retirement once more, he would give him an
incentive.                then told him of the intent to create a new position that would
be a good fit for him.                 time in Federal service hit the maximum ceiling of
80 percent, and the only way to increase his retirement annuity was to increase his salary.

In a series of May and June 2012 emails, Mr. Muro pushed for the creation of a PD and
to advertise the new position, announced at the GS-14 level only for the minimum
amount of time and smallest area of consideration, and                  told us the new
position lined up with his skills—fit him “to a T.” Once advertised, Mr. Muro directed
                to send the USAJOBS internet link only to             , and Mr. Muro’s
                                        and a long-time friend of                  , led
the interview panel to select the best qualified candidate.              told us that the


VA Office of Inspector General                                                                      8
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


promotion had a direct and predictable effect on his retirement income and that it would
be NCA’s way of paying back in the future. Once promoted, his salary increased by
about $10,000 annually and his retirement annuity by about $400 monthly. We made no
recommendations for administrative action against Mr. Muro, as he retired from VA
effective June 20, 2014.

Recommendation 1. We recommend that the VA Chief of Staff confer with the Offices
of Human Resources (OHR) and General Counsel (OGC) to determine the appropriate
corrective action to take, if any, as it relates to the two applicants listed on the certificate
of eligibles who were not afforded the same preference in this hiring effort.

Issue 2: Whether Mr. Muro Engaged in Preferential Treatment

Federal law states that, except in identified cases, an executive agency in conducting
procurements for property or services shall obtain full and open competition through the
use of competitive procedures and shall use the competitive procedure or combination of
competitive procedures that is best suited under the circumstances of the procurement.
41 USC § 253(a)(1)(A) and (B). Federal regulations state that Government business shall
be conducted in a manner above reproach and, except as authorized by statute or
regulation, with complete impartiality and with preferential treatment for none. Further,
it states that transactions relating to the expenditure of public funds require the highest
degree of public trust and an impeccable standard of conduct and that the general rule is
to avoid strictly any conflict of interest or even the appearance of a conflict of interest in
Government-contractor relationships. 48 CFR § 3.101-1. It also states that Government
contractors must conduct themselves with the highest degree of integrity and honesty.
Id., at § 3.1002.

The Standards of Ethical Conduct for Employees of the Executive Branch state that
employees shall not engage in financial transactions using nonpublic Government
information or allow the improper use of such information to further any private interest,
shall act impartially and not give preferential treatment to any private organization or
individual, and employees shall endeavor to avoid any actions creating the appearance
that they are violating the law or ethical standards. 5 CFR § 2635.101(b)(3), (8), and (14).
It further states that an employee shall not use his public office for his own private gain
or for the private gain of friends, relatives, or persons with whom the employee is
affiliated in a nongovernmental capacity. Id., at § 2635.702(a).

The VA Office of General Counsel (OGC) VACO Ethics Training Coordinator told us
that Mr. Muro completed annual ethics training on September 15, 2009, November 3,
2010, June 6, 2011, March 21, 2012, and November 5, 2013.




VA Office of Inspector General                                                                      9
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


Less-Than-an-Arm’s-Length Relationship with a Contractor

Mr. Muro told us that he first met Ms. Noonan in the late 1990s and that she started doing
business with NCA before he was in a position to direct the creation of contracts for
identified needs. He said that they had a “working relationship” and that they were
friends. He also said that they spoke by telephone when he needed clarification on a
particular NCA contract. Email and telephone records reflected that Mr. Muro and
Ms. Noonan frequently communicated via emails and telephone calls over the past
several years. Mr. Muro told us that he and Ms. Noonan “discussed a lot of the contracts
she worked with” but he said that he did not direct her to do any particular tasks for those
contracts. However, we found many emails reflecting that Mr. Muro and Ms. Noonan
discussed subjects other than NCA contract business.

Further, telephone records reflected that between October 26, 2012, and October 18,
2013, Mr. Muro and Ms. Noonan exchanged over 1,200 telephone calls and that he called
her about twice as many times as she called him. This included calls during business
hours as well as between 6:00 p.m. and 12:00 a.m., weekends, and holidays. Mr. Muro
told us that some of these calls were personal in nature but that a lot of them were
business-related. He said that they talked whenever he had the opportunity, which
included evenings and weekends. In response to our subpoena, Ms. Noonan sent us her
telephone records which contained numerous redactions of calls placed between her and
Mr. Muro. She told us that she redacted those calls, because they were personal in nature
and not related to any VA programs and operations. We subpoenaed Ms. Noonan’s
telephone providers, and in a comparison of their records to those she provided us, we
identified her redacted entries as calls between Ms. Noonan and Mr. Muro. She told us
that she identified those as personal calls, based on the time of day or length of the call,
and that “if they were later in the evening or they were longer calls, I know we weren't
talking about work.” She further said that their relationship was like that of confidants
and that they shared similar experiences. Ms. Noonan told us that she “was really
comfortable with him calling…talking with him and [she] enjoyed [it].”                     (b)(7)(C)

In a July 26, 2012, memorandum,                                                     told
Ms. Noonan the monitoring of her performance was delegated to the contracting officer
representative (COR) and that directions by other Government employees other than the
CO or COR shall not be acted upon by her but shall be referred to the COR for review.
Further, an August 28, 2012, internal memorandum, reflected that a memorandum was
previously sent to Ms. Noonan on July 26, 2012, as a reminder that her communication
will be limited to the COR and the curriculum team. It further stated that he spoke with
Ms. Noonan on the telephone on August 28, 2012, and told her that emails to Mr. Muro
and Mr. Powers were not required by the contract. Ms. Noonan told him that Mr. Muro
directed her to provide updates about the evaluations to himself and Mr. Powers.
            recorded that he did not discourage her from doing that but advised her to
avoid sending any unnecessary emails.


VA Office of Inspector General                                                                     10
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


told us that in August 2012 she asked Mr. Muro and Mr. Powers to let her know if
Ms. Noonan contacted them again, and she said they agreed.

Ms. Noonan told us that Mr. Muro asked her to include him on emails she sent and that
Mr. Muro was extremely involved with the curriculum development. She said that it was
“his baby.” Mr. Muro told us that he told the CO and the COR that he communicated
with Ms. Noonan but that he “didn't direct her to do anything…didn't ask her to change
anything.” He said that he only asked her for clarification on particular subjects.

Mr. Muir told us that he did not initially know that Mr. Muro communicated directly with
Ms. Noonan and that her direct communications with him was due to Mr. Muro allowing
it to occur. He said that while Ms. Noonan’s “actions were not in violation of the scope
of work to keep NCA leadership informed,” he said that he advised Mr. Muro that his
communications with Ms. Noonan should go through the CO or COR to better align with
the Federal acquisition regulations (FAR). Mr. Muir told us that in August 2013 he told
Mr. Muro that in accordance with the FAR, Ms. Noonan should only communicate with
the CO or the COR, and he said that Mr. Muro agreed. Mr. Muir also said that he, as the
NCA HCA, wanted Ms. Noonan to communicate with the CO, COR, or himself if an
issued could not be resolved and not Mr. Muro.
                                                                                                 (b)(7)(C)
Mr. Muro and Ms. Noonan ignored                     direction and Mr. Muir’s guidance.
Email records reflected that Mr. Muro and Ms. Noonan continued communicating with
one another via emails and through telephone calls. For example:

       	 In an August 31, 2013, email, Ms. Noonan told Mr. Muro “Thanks for letting
          me know if [it] was confusing. I copied it from a Word document and somehow
          didn’t copy it correctly.” Mr. Muro replied, “You’re welcome. You can see
          that I do read the e-mails you send.” Ms. Noonan responded, “I never doubted
          it - it is others who may underestimate that you read everything.”

       	 In a September 1, 2013, email, Ms. Noonan told Mr. Muro, “Thanks—just got
          back—call when you have time.” Mr. Muro replied, “Ok, having dinner now.”

       	 In a September 5, 2013, email, Ms. Noonan forwarded an email to Mr. Muro
          and asked him, “Why would it need to be moved? There are still 8 days until
          the proposal[s] are due.”

       	 In a September 5, 2013, email, Ms. Noonan forwarded Mr. Muro an email chain
          involving the then Santa Fe National Cemetery Director. In the email,
          Ms. Noonan told Mr. Muro “FYI - I think this is one of the things she is trying
          to stop, my connection to directors.” Mr. Muro replied “Yes.”




VA Office of Inspector General                                                                     11
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


       	 In a September 11, 2013, email, Ms. Noonan forwarded Mr. Muro an email
          chain of her communicating with the NCA curriculum team. In the email,
          Ms. Noonan told Mr. Muro “I win - you owe me a drink - but that was the only
          positive thing!”                                                           (b)(7)(C)
Telephone records reflected that after being given guidance to cease communications by
Mr. Muir and             , Mr. Muro and Ms. Noonan engaged in over 170 telephone calls
between September 1 and October 18, 2013, and they sent over 30 email messages to one
another within a 2-week time period. Mr. Muir told us that Mr. Muro “should not have
allowed that contact to continue,” and when Mr. Muro was told that his communication
with a contractor was “inappropriate,” he should have directed Ms. Noonan to go through
the proper channels.

Improper Endorsement of Ms. Noonan

Standards of Ethical Conduct for Employees of the Executive Branch state that an
employee shall not use his public office for the endorsement of any product, service, or
enterprise, or for the private gain of friends, relatives, or persons with whom the
employee is affiliated in a nongovernmental capacity. Further, an employee may sign a
letter of recommendation using his official title only in response to a request for an
employment recommendation or character reference based upon personal knowledge of
the ability or character of an individual with whom he has dealt in the course of Federal
employment or whom he is recommending for Federal employment. 5 CFR § 2635.702.

Government Ethics Training, as found in VALU’s Talent Management System (TMS),
which VA requires employees take annually, states that a VA employee may not use their
VA position for the benefit of others and that an employee must avoid improper use of
their official title to state or imply official endorsement or sanction of any non-Federal
entity, its products, services, or activities.

VA procurement records reflected that on multiple occasions Ms. Noonan included a
letter of recommendation, dated June 21, 2011, signed by Mr. Muro to bid for NCA
contracts. Ms. Noonan told us that although she included this letter on bid proposals,
NCA did not always award the contract to her. She said that Mr. Muro gave her a letter
of recommendation in 2009 and then again in 2011, after he became the Under Secretary.
Personnel records reflected that Mr. Muro became the Under Secretary effective June 6,
2011, and that he gave her the 2011 letter 15 days later. Mr. Muro said that Ms. Noonan
asked him for a letter of recommendation and he told her to send him a draft of what she
“would like [him] to say and [he] may tweak it or [he] may go with it as it is.”

Mr. Muro told us that he gave Ms. Noonan the letter to use with other organizations and
that if she chose to use it for NCA contracts, it only reflected what Mr. Muro thought of
her work. He said that he was not aware that she used it to bid for NCA contracts, nor
was he aware of any VA contracts awarded to her based on his letter. He further said


VA Office of Inspector General                                                                     12
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


that, “it probably would have been better that she didn't use it,” since he was the Under
Secretary and she was a contractor. Ms. Noonan initially told us that she told Mr. Muro
that she intended to use the letter for future NCA contract proposals; however, she later
said that she could not recall if she told him how she intended to use it.

Mr. Muir told us that had he been asked, he would have told Mr. Muro to not give
Ms. Noonan a letter of recommendation because of a perception of favoritism. He further
said that this perception could unduly influence the proposal review panel or a CO in
their award decision. However, Mr. Muro told us that he did not think a CO or proposal
review panel would be influenced, as Ms. Noonan only used the letter as a statement of
her past performance. Mr. Muir told us that past performance was certainly an evaluation
criteria for most Government contracts, such as a COR’s evaluation of a vendor’s past
performance, but a recommendation letter was not indicative of past performance. He
also said that although he would have recommended that Mr. Muro not give her the letter,
Ms. Noonan’s use of it was not improper, as the FAR allows for the use of any other
“reasonable basis” for evaluating quotations or offers.                                 (b)(7)(C)

Mr. Muro told us that at least two other NCA contractors,
and                                       asked him for a reference or recommendation
for their contract proposals to Federal agencies. He said that                        of
                            asked him on three occasions in 2007, 2009, and 2012, if she
could list him as a reference for a proposal. Mr. Muro said that the owner of
                                                asked him if he would let the cemeteries
know of the company’s work and availability for submitting contract proposals.

Email records reflected that                    asked Mr. Muro in a December 11, 2013,
email if she could list him as a reference for proposals for executive coaching, leadership,
and development of mid-level managers with other Federal agencies. Mr. Muro replied,
“      good to hear from you. Yes, please do use me as a reference.” In an April 8, 2013
email to Mr. Muro,                    said, “Good day Steve…Any opportunity to restore
their glory in time for the upcoming events? Always standing by to be of service. Stay
well friend.” Mr. Muro then forwarded the email to Ms. Wright and Tracey Boyd-Vega,
Director NCA Contracting Service, and said, “Tracey, Here's the person that can do the
work MSN 2 needs done.” Although Mr. Muro told                        that she could use him
as a reference and he forwarded                       email to NCA Contracting Service,
Mr. Muro could not provide any evidence that he authored and signed a letter of
recommendation for any other NCA contractor. Furthermore, Mr. Muir told us that a
letter of recommendation signed by an Under Secretary could certainly carry extra weight
on a proposal and influence a member of the review panel.

Email records reflected that Mr. Muro provided support to Ms. Noonan in her efforts to
obtain additional VA contracts. For example:




VA Office of Inspector General                                                                     13
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


   	 In an August 22, 2013, email, Subject: Request for a Reference, Ms. Noonan told
      Mr. Muro “My company is bidding on a project for VA VALU. I have attached
      the reference request. Once it is completed it is emailed to…I have filled in the
      parts relating to contract dollars and dates so you would not need to look it up.
      The completed form should be sent by the close of the bid which is 8/29.”

   	 In an August 23, 2013, email, Subject: Request for a Reference, Ms. Noonan told
      Mr. Muro, “Before you fill it out - I think I would like to change it - and I can
      complete as much of it as you want. Call me when you want to discuss.”
      Mr. Muro replied, “Ok, call me.”

   	 In an August 26, 2013, email, Subject: Reference, Ms. Noonan told Mr. Muro “I
      made some changes - I added language from your letter of reference that I will be
      including in the proposal. See what you think.” On August 27, Mr. Muro replied,
      “Can I send it from my,” and Ms. Noonan responded, “Work - so they know you
      are real please.”

   	 In an August 28, 2013, email, Subject: Noonan & Associates, Past Performance,
      Mr. Muro told Ms. Noonan, “Good morning,” and provided confirmation that he
      sent the past performance document to VALU points of contact. Ms. Noonan
      replied, “Thank you,” and Mr. Muro responded, “You’re welcome!”

Mr. Muro later told us that he has not “knowingly turned down a contractor’s request for
a letter of recommendation or to be used as a reference.” A VA OGC attorney told us
that “if the agency head has publicly endorsed [Ms.] Noonan or any particular vendor vis-
à-vis performance of agency contracts, I would have to think that would negatively affect
the contracting staff’s objectivity in selecting either the ‘best value’ offer/proposal/quote
or the lowest-price, technically acceptable (LPTA) choice if they thought the agency head
preferred [Ms.] Noonan.” He said that an endorsement such as this could well create
biased ground rules in Ms. Noonan’s favor, giving her an unfair competitive advantage.
He also said that Mr. Muro’s endorsement of Ms. Noonan placed employees in a position
of being “hard put not to be influenced in either market research or source selection in
giving a competitive advantage to the endorsed vendor over other competitors.” He told
us that although it did not rise to the level of violating 18 USC § 208, at least 5 CFR
§ 2635(b)(8) “would come into play as at least the appearance of preferential treatment
may have been created.”

Organizational Conflict of Interest

A series of June 2012 emails reflected that Ms. Noonan was part of the NCA curriculum
redesign team and that Mr. Muro and Mr. Powers reviewed the 2012 NCA intern
curriculum and made recommended changes. Emails also reflected that Mr. Muro
directed Ms. Wright to “ensure that when the SOWs for contracts are written the wording
from the curriculum modules are used…since it is what the curriculum team designed


VA Office of Inspector General                                                                     14
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


and provided to senior leaders.” Mr. Muro told us that parts of Ms. Wright’s
responsibilities were to manage the curriculum team for the NCA intern program and to
provide the curriculum design to him and Mr. Powers for review and approval. He said
that he directed Ms. Wright to make sure that the contract followed the curriculum, “so
the scope of work is written to what we want[ed] them to teach.”                       (b)(7)(C)
NCA procurement records reflected that on September 2012, NCA awarded a $61,025
Director Intern Mentor/Protégé contract to Ms. Noonan. In an internal memorandum,
             documented that Ms. Noonan’s involvement in the curriculum contract and
the Director Intern Mentor/Protégé training contract in 2012 was unknown to him.
            also said that Ms. Noonan helped develop the criteria and requirements for the
contract; therefore, she had an unfair competitive advantage. Records also reflected that
on August 30, 2013,              issued the request for proposal (RFP) VA786-13-R-0386
for the 2013 NCA Cemetery Director Intern Mentor/Protégé training and that
Ms. Noonan submitted a bid for it on September 13, 2013. Emails records reflected that
she forwarded the following to Mr. Muro regarding this RFP:

       	 In a September 4, 2013, email, Subject “Questions for VA786-13-R-0386, 2013
          NCA Cemetery Director Mentor/Protégé,” Ms. Noonan forwarded Mr. Muro
          her email communications with Ms. Wright and            .

       	 In a September 6, 2013, email, Subject “NCA Cemetery Director Intern
          Mentor/Protégé Training,” Ms. Noonan again forwarded Mr. Muro her email
          communications with Ms. Wright and          .

       	 In another September 6, 2013, email, Ms. Noonan told Mr. Muro, “Submitted
          with 30 minutes to spare!!! Had no idea it would take that long to put together.
          I will tell you about it!”                                                     (b)(7)(C)
Telephone records reflected that between September 13–14, 2013, Mr. Muro and
Ms. Noonan called one another 20 times and that they spoke for about 4 hours on those
calls. On September 15, 2013, Ms. Noonan sent                      a letter expressing her
concerns about potential bias in the selection process for the Director Intern Mentoring
Contract. On this day, Ms. Noonan and Mr. Muro exchanged 6 calls, and they spoke for
about 2 ½ hours. Although we do not know what was discussed during these calls, they
were made after Mr. Muro and Ms. Noonan were advised to cease communications and
were also in close proximity to her submission of an RFP for an NCA contract. In her
September 15 letter, Ms. Noonan requested that
                                       and COR for one of Ms. Noonan’s contracts, be
removed from the proposal review panel; however, Mr. Muir told us that he did not grant
her request. He said that this was “unheard of.” He also said that while Ms. Noonan may
have “overinflate[d] her opinion of herself and her relationship with NCA,” she was not
going to make Government personnel decisions.



VA Office of Inspector General                                                                     15
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO

                                                                                                         (b)(7)(C)
On September 23, 2013,              told Ms. Noonan in a memorandum that her proposal
would not be considered for the RFP VA786-13-R-0386, due to a potential organizational
conflict of interest.           said that Ms. Noonan was previously awarded the Intern
Curriculum Review contract and she helped develop the criteria and requirements of the
Mentor/Protégé program, so it would appear that her company had an unfair competitive
advantage for this RFP. Telephone records reflected that Ms. Noonan attempted to call
Mr. Muro 9 times that day, and he called her 3 times. They spoke for about 1 hour.

In a September 30, 2013, letter to Ms. Noonan,                      told her that the CO
determined that an organizational conflict of interest was found to exist and that it was in
the best interest of the Government to immediately remedy the conflict and “Noonan &
Associates shall remain excluded from the competition for the subject acquisition.”
Telephone records reflected that Ms. Noonan attempted to call Mr. Muro 3 times that
day. He called her once, and they spoke for 17 minutes. The next day, they called one
another 8 times and spoke for over 1 hour.

In an October 22, 2013, internal memorandum,                    wrote that she arrived at
NCA training center on July 15, 2012, and that on April 3, 2013,            delegated her
as the COR for the curriculum development contract. In her memorandum,
expressed concerns and that she relayed those concerns to Ms. Wright and
about a contractor, Ms. Noonan, with extensive insight into the curriculum development,
being able to bid and win so many of the contracts supporting that curriculum.

On November 14, 2013,                told Ms. Noonan that on advice from VA’s OGC
there was an organizational conflict of interest and to avoid an unfair competitive
advantage, Ms. Noonan was removed from the competition. In a November 19, 2013,
letter to Ms. Noonan,           told her that NCA would not extend the NCA Cemetery
Director Intern Mentor/Protégé Coaching task order to her.                         (b)(7)(C)
The FAR states that an organizational conflict of interest is created when other activities
or relationships with other persons cause a person to be unable or potentially unable to
render impartial assistance or advice to the Government, or the person’s objectivity in
performing the contract work is or might be otherwise impaired, or a person has an unfair
competitive advantage. 48 CFR § 2.101. The FAR also states that agencies should
normally prepare their own work statements. When contractor assistance is necessary, the
contractor might often be in a position to favor its own products or capabilities. To
overcome the possibility of bias, contractors are prohibited from supplying a system or
services acquired on the basis of work statements growing out of their services, unless
they met identified exceptions. Id., at § 9.505-2.

            documented in a memorandum that Ms. Noonan was awarded some of these
contracts in previous years, but the fact that she was not previously deemed ineligible to
compete for these contracts did not relieve the CO from his responsibility as outlined in
the FAR, which states that the CO shall analyze planned acquisition in order to “identify

VA Office of Inspector General                                                                     16
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


and evaluate potential organizational conflicts of interest as early in the acquisition
process as possible.” 48 CFR § 9.504(a)(1). In a bid protest, Ms. Noonan documented
that she successfully bid for several contracts for the Director Intern program since 2005,
which included the curriculum design, and in her opinion, there was no indication that
having multiple contracts was an organizational conflict of interest.

In response to being told that she was excluded from competition and would not be
extended on another task order, Ms. Noonan filed a protest with VA and two with the
Government Accountability Office (GAO). A December 20, 2013, GAO decision,
B-409357, stated that GAO, “dismiss[ed] the protest because it raises a matter of contract
administration over which we [GAO] do not exercise jurisdiction.” Mr. Muir told us that
both of Ms. Noonan’s GAO protests were dismissed.

Mr. Muro said that he was not aware that Ms. Noonan’s involvement in the curriculum
contract and that the language they used in statements of work for subsequent contracts,
of which Ms. Noonan bid and won some, was an organizational conflict of interest. He
said that he never told anyone to award or not award contracts to Ms. Noonan and that in
the future he was going to follow OGC’s recommendations and Federal regulations.

One-to-One Contract

VA Electronic Contract Management System records reflected that most of the contracts
awarded to Ms. Noonan were for full competition but that several were issued as sole­
source—defined as only one person or company that can provide the contractual services
needed. Ms. Noonan told us that she had some sole-source contracts, like the Executive
Coaching contract, which was a one-to-one contract with specific NCA senior leaders,
such as Ms. Wright; Ms. Sara Elton, NCA Chief of Operations MSN 3; and Ms. Maria
Garza, NCA Chief of Operations MSN 1.

Mr. Muir told us that he initially was not aware of the existence of the Executive
Coaching or one-to-one contract. He said that NCA was the only organization that had
this type of contract and that in his opinion it could give the appearance of preferential
treatment. He said that these one-to-one contracts “were established to assist NCA
employees in their professional development, specifically coordinating and executing a
mentorship relationship between the employee with NCA leaders and external leadership
experts to develop an [IDP] that supports the skills necessary for their position as NCA
leaders.” He said that Mr. Muro liked the mentoring and coaching process to get
employees promoted to the next level.

Ms. Noonan said that the service rendered as part of the contract was through one-to-one
meetings, observing the employee present in classes/training, providing feedback, and
through telephone counseling. She said that the contract helped “somebody who is new
to the role…somebody who is moving into that executive kind of level position,” to help
the employee write an IDP, and to identify any training needs.


VA Office of Inspector General                                                                     17
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


Ms. Wright told us that Mr. Muro requested that she receive Executive Coaching training
from Ms. Noonan in 2005 or 2006 when she was promoted to a GS-15 position. She said
that this training cost NCA about $6,000; however, NCA’s contracting office could not
locate any records associated with this contract. Ms. Wright told us that, at the time, she
did not consider this training as improper, but she said that this service was only provided
to her and select others on a one-on-one basis within NCA.

Ms. Elton told us that after she began working at the MSN 3 as their Chief of Operations,
her former (retired) supervisor, Mr. Johnathan Reiker, recommended that she take the
Executive Coaching training in 2011, at a cost of $4,000 for 16 hours ($250/hour) for
one-on-one training with Ms. Noonan. She said that in 2012 Mr. Reiker told her to again
use Ms. Noonan to help her prepare for executive level communications so that she could
apply for his position, once he retired. This contract was at a cost of $3,000 for 12 hours
one-on-one with Ms. Noonan. Ms. Elton told us that the coaching sessions consisted of:

       Ms. Noonan letting me know what was going [on] in the field, what people
       were saying about me that I wasn’t aware of… [Ms. Noonan] was a great
       help to me in terms of sharing her observations supposedly told to her in
       confidence from others in NCA…I felt the contract was unnecessary and
       my relationship with [my] boss and my fellow Chief of Engineering
       improved once the contract ended, because I felt like I could be myself and
       build relationships based on truth, performance, and integrity. I thought I
       was going to get coached on executive leadership styles but instead I
       learned how to defend myself and minimize communications with the
       cemetery directors and co-workers instead of building relationships the way
       I was comfortable.

Mr. Muir told us that Ms. Garza was promoted to a GS-15 position on November 4, 2012,
and Ms. Garza told us that she spoke with Ms. Elton regarding the one-to-one contract
she had with Ms. Noonan. She said that subsequently, she spoke to her supervisor,
Mr. Jeffrey Teas, about getting the same type of one-to-one training with Ms. Noonan.
Ms. Garza told us that in early 2013, NCA gave Ms. Noonan a contract for $6,750 to
develop an IDP for Ms. Garza’s career advancement to Senior Executive Service (SES).

Ms. Noonan told us that either an NCA CO or employee would contact her related to the
one-on-one contracts. VA financial records reflected that NCA paid Ms. Noonan
$374,167 for services rendered to NCA between February 3, 2010, and September 28,
2013, for 90 different transactions; however, not all of these were for the one-on-one
personal services.

We compared the services Ms. Noonan provided NCA to those of VALU, and we found
that they were similar. VALU is VA's corporate university that supports the agency’s
mission and business objectives through high quality, cost-effective continuous learning


VA Office of Inspector General                                                                     18
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


and development that enhances leadership, occupational proficiencies, and personal
growth. Their website, https://www.valu.va.gov/Home/Leadership, reflected that VALU
provides leadership training through many different curricula, such as their Leadership
VA Program. This program provides “vigorous intersession work” that develops and
targets the skills needed to face the “many challenges facing our Federal Government
during the 21st century.” It further stated that it provides “professional training” that
helps to build networks, increase “leadership skills, and prepare for the future.” Other
courses include training for supervisors and managers, which are tailored to VA
employees who serve as supervisors and managers; include career planning, job guides,
and resume builder; and the Senior Executive Service (SES) Candidate Development
Program which is designed to increase the pool of qualified candidates for SES. VALU
also provides training to “learn about creating and fulfilling your IDP at VA.”

Preferential Treatment of Select Employees

Ms. Noonan told us that she offered, and a number of NCA employees requested, that she
improve their resumes and ECQs when they were applying for advancement. She said
that she used Mr. Muro’s ECQs either as a sample for her training classes or as a model
for the employees she helped. Ms. Wright told us that Mr. Muro told her to have
Ms. Noonan review her ECQs and she said that she complied. She said that Ms. Noonan
also reviewed the ECQs for other NCA employees who applied for SES positions.

Email records reflected that Ms. Elton asked Ms. Noonan to give her resume a “once­
over with your flamethrower,” and also reflected that Ms. Noonan forwarded Ms. Elton’s
resume to Mr. Muro’s personal email account on January 7, 2012. Ms. Elton told us that
when she applied for her GS-14/15 position in March 2012, Ms. Noonan reviewed her
resume. Ms. Elton said that there was no cost to VA for Ms. Noonan to provide this
service and that she was aware of other NCA employees who previously used
Ms. Noonan’s expertise to improve their resumes and interviewing skills

When asked if she was aware that Ms. Noonan forwarded her resume to Mr. Muro,
Ms. Elton told us that she and Ms. Noonan agreed that Ms. Noonan would review her
resume “as a friend,” and that she was not aware that Ms. Noonan shared her resume with
Mr. Muro. She said that she considered this “a serious violation of [her] trust and [she
was] devastated that anyone but the interview panel and selecting official would have
seen [her] resume” for the position she applied for in 2012. She said that she was “very
upset… [she was] extremely private and [did not] tend to share [her] personal
information with just anyone,” and that this was “devastating” for her to learn.
                                                                                                   (b)(7)(C)
             told us that Ms. Noonan reviewed his resume, at no cost, when he was a
candidate for the GS-14 position discussed in Issue 1 of this report. Ms. Noonan told us
that Mr. Muro offered to review resumes or ECQs in her classes with mentors, protégés,
or anyone who wanted him to review them. She said that she forwarded them to


VA Office of Inspector General                                                                     19
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO
                                                                                                     (b)(7)(C)
Mr. Muro and “probably would have said,” this or that employee asked me to review
their resume or ECQs, “would you look at them too?” Mr. Muro told us that he reviewed
and edited these resumes after Ms. Noonan sent them to him. Mr. Muro later told us that
resumes and application materials were sent to him frequently when staff members
sought new or different jobs, careers, or opportunities. He said that he did not “turn
people away” who ask for him to review and give his advice on their application
materials; however,             sent his resume to Ms. Noonan for her review and not to
Mr. Muro. Mr. Muir told us that it was improper for Ms. Noonan to send NCA
employees’ resumes to Mr. Muro. Mr. Muro told us that he was a “strong believer in
mentoring” people who were interested in advancing in VA, and he said that he publicly
offered to review resumes and provide guidance to employees requesting it.

Conclusion

We concluded that Mr. Muro maintained a less-than-arm’s-length relationship with
Ms. Noonan, an NCA contractor, evidenced by their frequent email and telephone
communications, which continued even after they were given direction and guidance to
cease. In a 1-year time period, they made over 1,200 telephone calls to one another, and
over 170 in the 6 weeks following guidance to cease communications. As a result of
their relationship, Mr. Muro misused his position and title when he gave Ms. Noonan a
letter of recommendation which gave her an unfair competitive advantage when used to
procure additional contracts. Mr. Muro told us that he gave her the letter to use when
competing for other organizations, but he minimized the significance of the letter as
nothing more than reflecting what he thought of her work, if she used it for NCA
contracts. Although he permitted another contractor to use his name as a reference and
endorsed yet another, he could provide no evidence of giving any other contractor a letter
of recommendation to include with their contract proposals. Moreover, he assisted Ms.
Noonan in her efforts to obtain a VALU contract in August 2013 by completing a
reference request for her. An OGC attorney, who works in the professional staff group
responsible for supporting VA contracts, told us that an endorsement such as Mr. Muro’s
letter of recommendation could create biased ground rules in Ms. Noonan’s favor and
give her an unfair competitive advantage. Moreover, Ms. Noonan was so confident in
Mr. Muro’s support that she was bold enough to ask that               , a COR on one of
Ms. Noonan’s contracts, be removed from one RFP review panel.
                                                                                                    (b)(7)(C)

Further, Mr. Muro gave preference to select NCA employees when he reviewed and
edited their resumes, giving them an advantage in hiring efforts or promotional
opportunities.               told us that he sent Ms. Noonan his resume for review when
he applied for the GS-14 position, and email records reflected that Ms. Elton also sent
Ms. Noonan her resume. Ms. Noonan then sent it to Mr. Muro. Ms. Elton said that this
violated her trust, because she thought that besides Ms. Noonan, only the interview panel
and selecting official would see it. Ms. Noonan told us that when an employee sent her


VA Office of Inspector General                                                                     20
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO


their resume for review, she sent them to Mr. Muro, who told us that he then reviewed
and edited them. This gave select employees the benefit of Mr. Muro’s position and
expertise to ensure their resumes met, if not exceeded, the minimum qualifications for
advanced positions.

We also found that NCA gave Ms. Noonan sole-source contracts to provide one-to-one
services to NCA employees advanced or seeking advancement, paying her $250/hour to
meet with an employee, observe them do a presentation, provide feedback, and help with
their IDP. NCA’s HCA told us that these contracts were established to assist employees
in their professional development; however, this type of training was readily available
through VALU. Further, it provided select employees a benefit not provided to others.

Recommendation 2. We recommend that the VA Chief of Staff confer with OGC to
review any active contracts with Ms. Noonan to ensure there is no organizational conflict
of interest, as well as determine the appropriateness of the sole-source one-to-one
contracts, and take the appropriate corrective action, if any.

Comments
The VA Chief of Staff was responsive, and his comments are in Appendix A. We will
follow up to ensure that the recommendations are implemented.




                                                                JAMES J. O’NEILL 

                                                           Assistant Inspector General for
                                                                   Investigations





VA Office of Inspector General                                                                     21
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO
                                                                                          Appendix A
                         VA Chief of Staff Comments


               Department of
               Veterans Affairs                                  Memorandum

   Date:	      July 7, 2014

   From:	      VA Chief of Staff (00A)

   Subject: Administrative Investigation, Prohibited Personnel
            Practice and Preferential Treatment, NCA, VACO

   To:	        Director, Administrative Investigations Division, VA Office
               of Inspector General (OIG) (51Q)

               This update is in response to the VA OIG case number 2013­
               03899-IQ-0226.

               Recommendation 1: We will confer with the Office of
               General Counsel (OGC) and the Office of Human Resources
               Administration to determine the appropriate administrative
               action to take, if any, as it relates to the two applicants listed
               on the certificate of eligibles who were not afforded the same
               preference in this hiring effort.

               Recommendation 2: We will confer with OGC to review any
               active contracts with Ms. Noonan to ensure there is no
               organizational conflict of interest, as well as to determine the
               appropriateness of the sole-source one-to-one contracts, and
               take corrective action, if appropriate.




VA Office of Inspector General                                                                     22
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO




                               VA Chief of Staff Comments 

                         to Office of Inspector General’s Report


               The following VA Chief of Staff’s comments are submitted in
               response to the recommendation(s) in the Office of Inspector
               General’s Report:

               OIG Recommendation(s)

               Recommendation 1. We recommend that the VA Chief of
               Staff confer with OHR and OGC to determine the appropriate
               corrective action to take, if any, as it relates to the two
               applicants listed on the certificate of eligibles who were not
               afforded the same preference in this hiring effort.

               Comments: We will confer with OGC and OHR to
               determine the appropriate administrative action to take, if
               any, as it relates to the two applicants listed on the certificate
               of eligibles who were not afforded the same preference in this
               hiring effort.

               Recommendation 2. We recommend that the VA Chief of
               Staff confer with OGC to review any active contracts with
               Ms. Noonan to ensure there is no organizational conflict of
               interest, as well as determine the appropriateness of the sole-
               source one-to-one contracts, and take the appropriate
               corrective action, if any.

               Comments: We will confer with OGC to review any active
               contracts with Ms. Noonan to ensure there is no
               organizational conflict of interest, as well as to determine the
               appropriateness of the sole-source one-to-one contracts, and
               take corrective action, if appropriate.




VA Office of Inspector General                                                                     23
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO
                                                                                          Appendix B


            OIG Contact and Staff Acknowledgments


OIG Contact                      For more information about this report, please contact the
                                 Office of Inspector General at (202) 461-4720.
Acknowledgments                  Domingo Alvarez




VA Office of Inspector General                                                                     24
     Administrative Investigation, Prohibited Personnel Practice and Preferential Treatment, NCA, VACO
                                                                                          Appendix C

                                 Report Distribution
VA Distribution

Deputy Secretary (001) 

VA Chief of Staff (00A) 

Executive Secretariat (001B)




      To Report Suspected Wrongdoing in VA Programs and Operations:
                         Telephone: 1-800-488-8244 

                        Email: vaoighotline@va.gov

                Hotline Information: www.va.gov/oig/hotline





VA Office of Inspector General                                                                     25
